               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




     Fiscal Year 2012 Financial Testing
           Compliance Oversight
       Business Reply Mail Reviews

         Management Advisory Report




                                              January 29, 2013

Report Number FT-MA-13-004
                                                                     January 29, 2013

                                                Fiscal Year 2012 Financial Testing
                                                            Compliance Oversight
                                                    Business Reply Mail Reviews

                                                       Report Number FT-MA-13-004


BACKGROUND:
The Postal Accountability and              Service’s financial statements and
Enhancement Act of 2006 required the       internal controls over financial reporting.
U.S. Postal Service to comply with
Section 404 of the Sarbanes-Oxley Act      WHAT THE OIG FOUND:
and report on the effectiveness of the     We observed Business Reply Mail
agency’s key internal controls over        testing at 17 of 145 sampled sites and
financial reporting. The Postal Service    determined that examinations of key
established the Financial Testing          Business Reply Mail financial controls at
Compliance group to test these key         two of the 17 sites were not always
financial controls at postal units.        properly tested, documented, and
                                           reported. Specifically, testing
Business Reply Mail is a domestic          procedures had changed, but
service that allows a mailer to receive    management had not updated the test
First-Class mailpieces back from           program. When procedures change and
customers and pay postage only for the     are not properly updated to the test
pieces returned to the mailer from the     program, there is an increased risk that
original distribution. These pieces must   testers may follow outdated procedures
have a specific address and format, and    resulting in inaccurate test outcomes.
the Postal Service collects postage and
fees when the mail is delivered back to    WHAT THE OIG RECOMMENDED:
the original mailer.                       We did not make recommendations in
                                           this report but provided our observations
Our objective was to evaluate whether      to the independent public accounting
the Postal Service properly tested,        firm and Postal Service management
documented, and reported its               throughout the year. Postal Service took
examination of key financial reporting     corrective action by updating the test
controls related to confirming that        program on April 19, 2012. The firm
revenue was accurately recorded and        used the information to support its
invoices were printed before mail was      opinions on the fiscal year 2012 Postal
provided to Business Reply Mail            Service financial statements and
customers.                                 controls over financial reporting.
                                           Because we made no
We conducted this review in support of     recommendations, management chose
the independent public accounting firm’s   not to respond formally to this report.
reliance on management’s testing, and
overall audit opinions on the Postal       Link to review the entire report
January 29, 2013

MEMORANDUM FOR:            TIMOTHY F. O’REILLY
                           VICE PRESIDENT, CONTROLLER




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial and Systems Accountability

SUBJECT:                   Management Advisory Report – Fiscal Year 2012 Financial
                           Testing Compliance Oversight Business Reply Mail Reviews
                           (Report Number FT-MA-13-004)

This report presents the results of our review of the U.S. Postal Service’s Financial
Testing Compliance work at Business Reply Mail units (Project Number
12BD006FI000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Denice M. Millett, director,
Finance, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Julie S. Moore
    Stephen R. Phelps
    Janet F. Meddick
    Corporate Audit and Response Management
Fiscal Year 2012 Financial Testing Compliance Oversight                                                            FT-MA-13-004
 Business Reply Mail Reviews


                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Financial Testing Compliance Review Program .............................................................. 1

Recommendations .......................................................................................................... 2

Appendix A: Additional Information ................................................................................. 3

   Background ................................................................................................................. 3

   Objective, Scope, and Methodology ............................................................................ 3

   Prior Audit Coverage ................................................................................................... 5
Fiscal Year 2012 Financial Testing Compliance Oversight                         FT-MA-13-004
 Business Reply Mail Reviews


Introduction

This report presents the results of our fiscal year (FY) 2012 Financial Testing
Compliance (FTC) Oversight Reviews for Business Reply Mail (BRM) units (Project
Number 12BD006FI000). We conducted these oversight reviews to support the
independent public accounting (IPA) firm’s reliance on U.S. Postal Service
management’s testing of Sarbanes-Oxley (SOX) key financial controls and to provide
increased focus on the remediation of control failures in the field. Our overall objective
was to evaluate whether FTC properly tested, documented, and reported their
examination of key SOX financial reporting controls confirming revenue is accurately
recorded and invoices are printed before mail is provided to BRM customers. This
review addresses financial risk. See Appendix A for additional information about this
review.

BRM is a domestic service that allows a mailer to receive First-Class mailpieces back
from customers and pay postage only for the pieces returned to the mailer from the
original distribution of BRM pieces. These pieces must have a specific address and
format. In addition, postage and fees are collected when the mail is delivered back to
the original mailer.

Conclusion

The FTC group did not always properly test, document, and report their examinations of
key SOX financial reporting controls that ensure revenue is accurately recorded and
invoices are printed before mail is provided to BRM customers. Specifically, we
observed that FTC analysts did not always follow their written test program for selecting
transactions to test at two of the 17 sites we visited. The testing procedures had
changed, but management had not updated the test program. If testing procedures
change, and they are not properly documented, there is an increased risk that FTC
analysts may follow the outdated testing procedures, causing test results to be
inaccurate.

We communicated our oversight results to management via weekly discussions and by
issuing quarterly interim reports. We also communicated our results to the IPA firm
through weekly discussions and quarterly capping spreadsheets. Because the IPA firm
used the information to support its opinions on FY 2012 Postal Service financial
statements and controls over financial reporting, and management resolved the issue
when we brought this matter to their attention, we did not make recommendations in this
report.

Financial Testing Compliance Review Program

FTC analysts did not follow their written test program at two of 17 sites we visited.
Specifically, FTC analysts followed verbal instructions for selecting sample transactions

                                                    1
Fiscal Year 2012 Financial Testing Compliance Oversight                                                 FT-MA-13-004
 Business Reply Mail Reviews


for observation. The written test program required analysts to use a report 1 that did not
include official government 2 BRM accounts. Therefore, on January 13, 2012,
management informed analysts of this error and provided an additional report 3 to use
for this test that included all BRM accounts. However, management did not update the
written test program to require analysts to obtain these reports, because the manager
was trying to limit the number of program changes. As a result, FTC analysts in other
locations might not have properly identified the correct universe from which to select
transactions for observation. Management updated the test script to include both reports
on April 19, 2012.

See Appendix A, Table 1, for the list of test sites we observed, report numbers, and
dates interim reports were issued.

Recommendations

We did not make recommendations in this report because management addressed the
issue during the audit. As a result, management chose not to respond formally to this
report.




1
  Balances Report that displays the permit information, company name, location, cost center, last invoice date,
current balance, fee status, and the last fee payment date.
2
  The Official Mail Accounting System (OMAS) is an automated system where postage statement data are entered for
federal agency official business mail. The Postal Service invoices the federal agencies based on the information
entered. Federal agencies use the system to monitor their mailings and postage costs. Official mail is mail authorized
by federal law to be sent by U.S. government officials, often without postage prepayment. It includes franked mail
sent by members of Congress and penalty mail sent by U.S. government agencies.
3
  The Transaction Summary Report provides a list of all business mail transactions for a mailing facility for a specific
business day or time frame.

                                                           2
Fiscal Year 2012 Financial Testing Compliance Oversight                                                FT-MA-13-004
 Business Reply Mail Reviews


                                 Appendix A: Additional Information

Background

The Postal Accountability and Enhancement Act of 2006 requires the Postal Service to
comply with Section 404 of SOX Act. To comply with Section 404 requirements, the
Postal Service must report on the effectiveness of the agency’s internal controls over
financial reporting. It must submit an annual assessment to the Postal Regulatory
Commission, which monitors and manages the Postal Service’s compliance with SOX
requirements.

This report addresses key BRM financial control testing at Postal Service units. BRM is
a domestic service that allows a mailer to receive First-Class mailpieces back from
customers and pay postage only for the pieces returned to the mailer from the original
distribution of BRM pieces. These pieces must have a specific address and format. In
addition, postage and fees are collected when the mail is delivered back to the original
mailer.

The PostalOne! System 4 supports BRM accounts and interfaces with the Point of
Service One System 5 to provide a single point of entry for deposits and fee payments.
BRM invoices are system-generated from the PostalOne! System and represent a
receipt for payment. The invoices also ensure BRM revenue has been recorded in
PostalOne! before release of the mail.

The key internal controls over financial reporting for BRM are to confirm that revenue is
accurately entered into PostalOne! and invoices are generated to ensure correct
payment before the release of the mail.

Objective, Scope, and Methodology

Our overall objective was to evaluate whether FTC properly tested, documented, and
reported their examination of key SOX financial reporting controls confirming revenue is
accurately recorded and invoices are printed before mail is provided to BRM customers.
We conducted these oversight reviews in support of the IPA firm’s reliance on
management’s testing and overall audit opinions on the Postal Service’s financial
statements and internal controls over financial reporting.

To accomplish our objective, we observed FTC staff conducting key financial control
tests that included confirming that BRM revenue was accurately collected and recorded
at 25 randomly selected sites. We also determined whether FTC provided supporting



4
  PostalOne! is an integrated electronic system that records mailing transactions, receives payments, simplifies
record keeping, and the retrieval of mailing data.
5
  The Point of Sale One terminal system is the primary hardware and software system used to conduct sales
transactions during the Post Office check-out process.


                                                          3
Fiscal Year 2012 Financial Testing Compliance Oversight                                               FT-MA-13-004
 Business Reply Mail Reviews


documentation for the work performed. We issued interim reports each postal quarter6
to communicate the results of our reviews. Table 1 shows the 17 sites we observed by
postal quarter.

             Table 1: Number of OIG Oversight Reviews of FTC SOX Testing

                                    OIG Oversight Review of FTC Testing
                          Site                     Report Number      Report Date                   Postal
                                                                                                    Quarter
        Farmingdale Post Office                        FI-MA-12-008           May 21, 2012           2
        Charlotte Downtown Station
        Ranson Post Office
        Medical Center Station                         FI-MA-12-012         August 16, 2012            3
        Azalea Station
        Sacramento Post Office
        Las Vegas Post Office
        Pierre Main Post Office
        Columbia Main Post Office
        Philadelphia Post Office
        Nashville Post Office
        Spring Valley Station
        Dallas Main Post Office                       FT-MA-13-002         October 31, 2012            4
        Atlanta Main Post Office
        Springfield Main Post Office
        Phoenix Main Post Office
        Oklahoma City Business Mail Entry
         Unit
    Source: OIG.

We conducted this review from February 2012 through January 2013, in accordance
with the Council of the Inspectors General on Integrity and Efficiency, Quality Standards
for Inspection and Evaluation. We provided a draft copy of this report to management
on January 7, 2013, and, because we did not make any recommendations,
management chose not to respond formally to this report.

We assessed the reliability of computer data by verifying them to source records to
determine whether Postal Service revenue was accurately recorded. Specifically, we
observed FTC analysts use PostalOne! reports during testing, and we verified the
reliability of PostalOne! by comparing report data to the BRM invoice. We determined
that the data were sufficiently reliable for the purposes of this report.




6
 An accounting division of the fiscal year that consists of 3 monthly accounting periods that are based on calendar
months. Postal Quarter 1 – October 1 through December 31, 2011; Postal Quarter 2 – January 1 through March 31,
2012; Postal Quarter 3 – April 1 through June 30, 2012; and Postal Quarter 4 – July 1 through September 30, 2012.

                                                         4
Fiscal Year 2012 Financial Testing Compliance Oversight                       FT-MA-13-004
 Business Reply Mail Reviews


Prior Audit Coverage

                                                                             Monetary
          Report Title                Report Number Final Report Date         Impact
Fiscal Year 2011 Financial             FI-MA-12-003           1/20/2012        None
Testing Compliance Oversight
Reviews
Report Results:
The FTC group made significant improvements in their testing of key SOX financial
reporting controls in FY 2011. However, opportunities existed to improve the quality of
conducting tests and documenting test results. Specifically, the FTC group did not
identify testing errors in four site reviews, did not perform steps in accordance with
their program in three site reviews and did not adequately document their work in two
site reviews. As a result, OIG did not always agree with FTC site results. We did not
make any recommendations in the report but provided our observations to the IPA firm
and Postal Service management throughout the year.

Fiscal Year 2010 Quality of        FF-MA-11-001             1/3/2011             None
Postal Service Financial
Testing and Compliance
Results
Report Results:
FTC did not report all exceptions they identified during their reviews, causing their
results to not always be consistent with the OIG’s results. We did not make any
recommendations in the report but provided our observations to the IPA firm and
Postal Service management throughout the year.




                                                    5
